                                                                Issue Date
                                                                        December 4, 2008
                                                                Audit Report Number
                                                                        2009-NY-1003




TO:        Nelson R. Bregon, General Deputy Assistant Secretary for Community Planning
                                             and Development, D



FROM:      Edgar Moore, Regional Inspector General for Audit, 2AGA

SUBJECT: Lower Manhattan Development Corporation, New York, New York,
         Community Development Block Grant Disaster Recovery Assistance Funds

                                  HIGHLIGHTS

 What We Audited and Why

            This is the eleventh in our series of congressionally mandated audits of the Lower
            Manhattan Development Corporation’s (auditee) administration of the
            Community Development Block Grant Disaster Recovery Assistance funds
            awarded to the State of New York in the aftermath of the September 11, 2001,
            terrorist attacks on the World Trade Center in New York City. During the audit
            period, October 1, 2007, through March 31, 2008, the auditee disbursed $74.5
            million of the $2.783 billion administered.

            Our audit objectives were to determine whether the auditee (1) disbursed
            Community Development Block Grant Disaster Recovery Assistance funds in
            accordance with the guidelines established under U.S. Department of Housing and
            Urban Development (HUD)-approved partial action plans and applicable laws and
            regulations, (2) complied with its procurement and contracting procedures, and
            (3) had a financial management system in place that adequately safeguarded funds
            and prevented misuse.
What We Found


           The auditee administered the grant funds we reviewed in accordance with HUD
           regulations and continued to maintain a financial management system that
           adequately safeguarded funds and prevented misuse. However, two concerns
           require your attention. Specifically, the auditee (1) charged legal costs to the
           World Trade Center Memorial and Cultural program as activity delivery costs
           instead of as administrative and planning costs, and (2) had not corrected
           drawdowns inadvertently charged to the wrong program budgets in HUD’s
           Line of Credit Control System. As a result, the auditee has fewer funds than
           would otherwise be available for the World Trade Center Memorial and Cultural
           Program, and HUD’s Line of Credit Control System is reporting incorrect
           amounts for individual budget line items.

What We Recommend


           We recommend that HUD’s General Deputy Assistant Secretary for Community
           Planning and Development direct the auditee to (1) provide documentation for the
           rationale to classify legal costs as direct program activity delivery costs instead of
           as administrative and planning costs so that HUD can make an eligibility
           determination, and (2) enhance its procedures to allow for correction of
           misclassifications within HUD’s Line of Credit Control System as funds are
           drawn down.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.


Auditee’s Response


           We discussed the results of our review during the audit and with a draft report at
           an exit conference held on October 20, 2008. Based upon discussion and
           documentation provided at, and subsequent to, the exit conference, we provided
           the auditee a revised draft on November 20, 2008, and the auditee provided
           written comments on November 24, 2008. The auditee disagrees that legal costs
           are not properly classified as direct program delivery costs, and has taken action
           to address correction of misclassifications in HUD’s Line of Credit Control
           System. The complete text of the auditee’s response, along with our evaluation of
           that response, can be found in appendix B of this report.




                                             2
                            TABLE OF CONTENTS

Background and Objectives                                              4

Results of Audit
      Finding 1: The Auditee Administered Grant Funds in Accordance    6
                 with HUD Regulations

Scope and Methodology                                                  10

Internal Controls                                                      11

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use   13
   B. Auditee Comments and OIG’s Evaluation                            14
   C. Schedule of Disbursements as of March 31, 2008                   17




                                            3
                          BACKGROUND AND OBJECTIVES

 The Lower Manhattan Development Corporation (auditee) was created in December 2001 as a
subsidiary of the Empire State Development Corporation to function as a joint city-state
development corporation. A 16-member board of directors, appointed equally by the governor
of New York State and the mayor of New York City, oversees the auditee’s affairs. The Empire
State Development Corporation performs all accounting functions for the auditee, including
payroll, payments to the auditee’s vendors, and drawing funds from the U.S. Department
of Housing and Urban Development (HUD).

The State of New York designated the auditee to administer $2.783 billion1 of the $3.483 billion
in Community Development Block Grant Disaster Recovery Assistance funds appropriated by
Congress following the September 11, 2001, terrorist attacks on the World Trade Center to assist
with the recovery and revitalization of Lower Manhattan. Planned expenditures of Disaster
Recovery Assistance funds are documented in action plans that receive public comment and are
approved by HUD. HUD had approved 15 partial action plans as of March 31, 2008, that
allocated the $2.783 billion to various programs and activities (see appendix C for amounts by
program). As of March 31, 2008, the auditee had disbursed approximately $1.45 billion, or 52
percent, of the $2.783 billion allocated.

During this audit, we reviewed procurement and contracting procedures, financial management
procedures, and disbursements related to the following programs:

World Trade Center Memorial and Cultural program: As of March 31, 2008, HUD had
approved approximately $622.5 million to fund the planning, selection, coordination, and
construction of a memorial. In addition, funds were earmarked for planning and possible
construction of memorial-related improvements and museum and cultural uses on the World
Trade Center site and adjacent areas, complementing the commercial redevelopment and
infrastructure improvements by the Port Authority of New York and New Jersey, the owner of
the World Trade Center Site. Of the $622.5 million, $207.1 million2 relates to the acquisition and
deconstruction of 130 Liberty Street (the Deutsche Bank building).

Hudson River Park Improvements program: As of March 31, 2008, HUD had approved $72. 6
million to complete extensive renovations to the Hudson River waterfront in Lower Manhattan,
including public recreational piers (Piers 25 and 26), an ecological pier, and an adjacent upland
park. The public facilities to be created include habitat planting areas, a boathouse, a restaurant,
a children’s playground, volleyball courts, basketball courts, an open lawn, boat docking, mini
golf, an informal athletic field, and a skate park.


1
  The Empire State Development Corporation administers the remaining $700 million.
2
  While this amount was increased to $237.1 million, HUD’s Line of Credit Control System had not been updated to
include the $30 million reallocation. Additionally, this amount was increased to $274.6 million on September 2, 2008,
with HUD approval to reallocate an additional $37.5 million from the Utility Restoration and Infrastructure Rebuilding
program.



                                                          4
East River Waterfront project: As of March 31, 2008, HUD had approved $150 million for the
East River Waterfront Esplanade and Piers ($139.6 million) and the East River Waterfront
Access project ($10.4 million). We reviewed the East River Waterfront Esplanade and Piers
project, designed to address issues such as underused spaces, the absence of sidewalks, and the
lack of amenities, which decrease potential visitation to the site. The revitalized waterfront
would include an approximately two-mile esplanade, consisting of a mix of open spaces and
cultural and recreational uses, and would provide a link between the Financial District,
Chinatown, and the Lower East Side to the waterfront.

Local Transportation and Ferry Service: As of March 31, 2008, HUD had approved $9 million
for this program, of which $4.8 million is for the Lower Manhattan Street Management Program
and $4.2 million is for the Lower Manhattan Ferry Service Program. We reviewed the Lower
Manhattan Ferry Service Program, which provides $4.2 million for the Port Authority of New
York and New Jersey Yonkers Ferry Service Program. The Port Authority administers the
program, which will benefit the area’s existing and future businesses, workers, and visitors to the
area. Ferry service to New York’s northern suburbs is expected to, among other benefits,
eliminate a two- or three-seat ride with direct ferry service to Lower Manhattan and provide an
alternative mode of travel in the event of rail service disruptions. Ferry service would also
expand Lower Manhattan’s labor pool and sustain its vitality for existing and future Lower
Manhattan businesses.

Fulton Corridor Revitalization: As of March 31, 2008, HUD had approved $38 million to
redevelop Fulton Street and its surrounding areas into a vibrant mixed-use retail corridor serving
the nearby commercial and residential sectors and the growing visitor market. Funds would
provide needed public investments in streetscape improvements, public open spaces, and
incentives to spur private rehabilitation and renovation of retail components.

Our audit objectives were to determine whether the auditee (1) disbursed Community
Development Block Grant Disaster Recovery Assistance funds in accordance with the guidelines
established under HUD-approved partial action plans and applicable laws and regulations, (2)
complied with its procurement and contracting procedures, and (3) had a financial management
system in place that adequately safeguarded funds and prevented misuse.




                                                 5
                                     RESULTS OF AUDIT

Finding 1: The Auditee Administered Grant Funds in Accordance with
           HUD Regulations
The auditee administered the grant funds we reviewed in accordance with HUD regulations and
continued to maintain a financial management system that adequately safeguarded funds and
prevented misuse. However, two concerns were identified which require your attention.
Specifically, the auditee (1) charged $468,649 of legal costs to the World Trade Center Memorial
and Cultural program as activity delivery costs instead of as administrative and planning costs,
and (2) had not corrected drawdowns inadvertently charged to the wrong program budgets in
HUD’s Line of Credit Control System. These issues occurred because the auditee believes that
the legal costs are allowable as activity delivery costs, that HUD had corrected the previously
reported drawdown error, and that drawdown errors could only be corrected through offset when
the effected program budget lines have expenditures in the full amount of the errors. As a
result, the auditee has fewer funds than would otherwise be available for the World Trade Center
Memorial and Cultural Program, and HUD’s Line of Credit Control System is reporting incorrect
amounts for individual budget line items.


    Legal Costs Classified as
    Activity Delivery Costs


                 The auditee executed an emergency3 contract on October 11, 2007 for up to
                 $250,000 for legal services on an as needed basis to coordinate all legal activities
                 related to the 130 Liberty Street project. These activities were to include inquiries
                 regarding contracts, investigations related to the fire that occurred at the Deutsche
                 Bank Building (130 Liberty Street) in August 2007 and potential litigation
                 relating to contracts. The contract was amended on December 13, 2007 to allow
                 costs up to $1 million and on March 19, 2008 for up to $3.5 million4. On
                 February 8, 2008, the auditee paid $468,649 for services rendered under this
                 contract, including meetings with the legal team regarding documentation
                 production, telephone conference with the assistant district attorney, conference
                 calls with the auditee’s general counsel, conferences with document management
                 companies, review and analysis of contracts and memorandums, meetings with
                 the partners, information and strategy meetings, reading of background
                 documents and news articles, compilation of names involved in the case, and
                 drafting e-mails and memorandums. Procurement justification memorandums
                 provide that the law firm was hired to represent the auditee and the Lower

3
  The contract was awarded based on the auditee’s Emergency Contract Authorization Policy, which authorizes its
   President in exceptional circumstances to enter into agreements for amounts up to $250,000 prior to Board
   approval.
4
  Subsequent to our audit period, the contract was amended on October 14, 2008 for up to six million dollars.


                                                        6
                 Manhattan Construction Command Center,5 a division of the auditee, in all
                 matters related to an investigation initiated by the local district attorney related to
                 the fire at 130 Liberty Street.

                 Regulations at 24 CFR (Code of Federal Regulations) 570.206 define
                 administrative costs as reasonable costs of program management, coordination,
                 monitoring, and evaluation, which include providing information to citizens and
                 local officials, preparing budgets, preparing performance reports, and resolving
                 audit and monitoring findings. These regulations also define activity delivery
                 costs as costs for staff and overhead directly related to carrying out eligible
                 activities.

                 HUD has approved through partial action plans various legal costs related to real
                 estate, environmental review, and litigation counsel to pursue contractual and
                 legal avenues available to the auditee related to the 130 Liberty Street site, that
                 have been charged as program activity delivery costs. However, the legal costs in
                 question appear to be more administrative in nature. For example, the auditee’s
                 procurement justification memo states that due to the complex civil and criminal
                 issues related to the 130 Liberty Street project immediately preceding and
                 following the fire6, the auditee and its division, require expert legal advice and
                 services in order to consider all legal issues, potential evidence, and prepare
                 responses to all inquiries and investigations, as well as inform management
                 for strategies of existing and future activities at the 130 Liberty Street project site
                 in light of the potential outcomes of the investigations. These costs, while being
                 incurred as a result of events affecting a particular program, are not directly
                 related to carrying out the program activity. Auditee officials maintain that the
                 costs are necessary to continue delivery of the program activity.

    Drawdowns from Incorrect
    Budget Lines in HUD’s Line of
    Credit Control System Not
    Corrected

                 The alternative procedures published in the Federal Register require the auditee to
                 annually include a financial reconciliation of funds budgeted and expended in its
                 Disaster Recovery Grant Report, which should include ensuring that information in
                 HUD’s Line of Credit Control System is accurate. During its reconciliation of draws
                 made in HUD’s Line of Credit Control System to disbursements reported in its
                 Disaster Recovery Grant Report, the auditee did identify $159,213 expended for the
                 World Trade Center Memorial and Cultural program that was inadvertently drawn
                 down from the budget lines of three other programs (the New York Stock Exchange
                 Area Improvements, Parks and Open Spaces, and the East River Waterfront project)
                 in HUD’s Line of Credit Control System. Auditee officials stated that they planned

5
  The Lower Manhattan Construction Command Center is responsible for coordination of all construction activity in
Lower Manhattan and is primarily funded by the Federal Transportation Administration and state and city agencies.
6
  A fire occurred at the 130 Liberty Street site in August 2007.


                                                        7
                    to take action to properly classify the costs when the three programs have
                    expenditures available to post. However, an error which we had previously
                    recommended7 to be corrected by reclassifying $156,650 in costs within HUD’s
                    Line of Credit Control System from the Lower Manhattan Tourism program to the
                    World Trade Center Memorial and Cultural program had not yet been corrected
                    despite subsequent drawdowns for amounts less than the full amount to be offset in
                    the Lower Manhattan Tourism program.

                    HUD’s Line of Credit Control System reported that the auditee drew down $135,000
                    from the Lower Manhattan Tourism program in September 2007, which could have
                    been used to reclassify $135,000 of the $156,650, leaving $21,650 to be reclassified
                    in future draws. However, an auditee official stated that reclassifications have only
                    been made when there were enough expenditures that will allow for the complete
                    reclassification of incorrect postings8. While the auditee’s process for reconciling
                    draws reported in HUD’s Line of Credit Control System to disbursements reported
                    in its Disaster Recovery Grant Report is an effective detection control to identify
                    errors in draws, the process could be strengthened by correcting errors as
                    disbursements occur, and by including information to explain all current period and
                    prior period differences between amounts drawn from the Line of Credit Control
                    System and amounts reported in the Disaster Recovery Grant Report.


    Conclusion

                    The auditee administered the grant funds we reviewed in accordance with HUD
                    regulations and continued to maintain a financial management system that
                    adequately safeguarded funds and prevented misuse. However, further
                    documentation is needed to determine whether legal costs were appropriately
                    charged as program activity delivery costs instead of as administrative and
                    planning costs, and action is needed to strengthen the correction of drawdown
                    errors within HUD’s Line of Credit Control System. These issues are attributable
                    to the auditee’s belief that the legal costs are allowable as activity delivery costs,
                    that HUD had corrected the previously reported drawdown error, and that it could
                    only correct drawdown errors when the effected program budget lines had enough
                    expenditures to fully correct the errors.

    Recommendation

                    We recommend that HUD’s General Deputy Assistant Secretary for Community
                    Planning and Development direct the auditee to



7
    Recommendation number 1A of audit report number 2006-NY-1013, issued September 27, 2006.
8
    Subsequent to our discussion of these procedures and our proposed recommendation with the auditee at the exit
    conference, the auditee requested that HUD make the necessary adjustments. These were affected on October 23,
    2008.


                                                          8
1A.   Provide documentation for the rationale to classify $468,649 in legal costs
      as direct program activity delivery costs instead of as administrative and
      planning costs so that HUD can make an eligibility determination. Any
      amounts determined to not be program delivery costs should be
      reclassified as administrative and planning costs, thereby leaving $3
      million available for program delivery costs.

1B.   Enhance its reconciliation process for HUD’s Line of Credit Control
      System and the Disaster Recovery Grant Report to allow correction of
      misclassifications in a timelier manner as funds are drawndown and
      include additional information to explain differences.




                               9
                         SCOPE AND METHODOLOGY

To achieve our audit objectives, we reviewed applicable laws, regulations, and program
requirements; HUD-approved partial action plans; and the auditee’s accounting books and
records. We documented and reconciled disbursements recorded during the audit period in
HUD’s Line of Credit and Control System to the auditee’s records.

During the audit period, October 1, 2007, through March 31, 2008, the auditee disbursed $74.5
million of the $2.783 billion in Disaster Recovery Assistance funds for activities related to the
rebuilding and revitalization of Lower Manhattan. We tested $16.8 million, representing 22.6
percent, of the amount disbursed for the period.

                                     Amount disbursed October 1,
                                   2007, through March 31, 2008              Amount tested
       Program area                        (in millions)                      (in millions)

World Trade Center Memorial
and Cultural program                         $33.62                                 $8.79

Hudson River Park
Improvement program                          $22.51                                 $7.67

East River Waterfront project                 $ 0.22                                $0.07

Local Transportation and Ferry Service        $ 0.79                                $0.18

Fulton Corridor Revitalization                $ 0.33                                $0.10

            Total                            $57.47                               $16.81

We obtained a general understanding of the auditee’s system of internal controls for the
programs in which disbursements were tested. We also reviewed the auditee’s procurement and
contracting procedures, its monitoring procedures for programs administered by its parent
corporation as a subrecipient, and the subrecipient’s monitoring procedures for the Small Firm
Attraction and Retention Grant and Job Creation and Retention programs. In addition, we
performed corrective action verifications of closed recommendations to determine whether the
auditee implemented corrective action.

We performed our on-site work at the auditee’s office in Lower Manhattan and at the auditee’s
parent company, the Empire State Development Corporation, in Midtown Manhattan from June
through September 2008.

We performed our review in accordance with generally accepted government auditing standards.



                                                10
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined the following internal controls were relevant to our audit objectives:

                      Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

                      Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

                      Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

                      Validity and reliability of data - Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

               We assessed the relevant controls identified above.

A significant weakness exists if management controls do not provide reasonable assurance that
the process for planning, organizing, directing, and controlling program operations will meet the
organization’s objectives.




                                                11
Significant Weaknesses


           There were no significant weaknesses identified.




                                            12
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                   Recommendation                         Funds to be put
                                        Unsupported1/
                   number                                to better use 2/
                   1A                   $ 468,649        $ 3,031,351


1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In this instance, if the planned legal expenditures are
     determined to be more appropriately charged as administrative and planning costs, this
     will result in a reduction of program delivery costs of $468,649 already disbursed and
     make $3 million not yet disbursed available for the World Trade Center Memorial and
     Cultural program.




                                             13
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         14
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




Comment 3




                         15
                         OIG Evaluation of Auditee Comments

Comment 1   The documentation provided that related to the legal costs in question showed that
            costs were incurred for expert legal advice and services in order to consider all
            legal issues, potential evidence, and prepare responses to all inquiries and
            investigations, as well as to inform management of strategies for existing and
            future activities at the 130 Liberty Street project site in light of the potential
            outcomes of the investigations into the fire at the site. While there may be
            ambiguity as to the precise classification of these costs, the nature of the services
            does not appear to directly relate to carrying out the deconstruction activity at 130
            Liberty Street. In addition, the legal services also related in part to the auditee’s
            division (the Lower Manhattan Construction Command Center), which is not
            currently financed by HUD. Consequently, HUD needs to evaluate the
            documentation requested and make a determination as to whether all or part of
            these costs should be charged as administrative and planning costs.

Comment 2   If the questioned costs are determined to be more appropriately classified as
            administration and planning costs, the three million dollars not yet expended
            would be classified as funds to be put to better use, thus making available that
            amount for direct program delivery costs.

Comment 3   The auditee’s actions were responsive to our recommendations.




                                             16
Appendix C
         SCHEDULE OF DISBURSEMENTS AS OF MARCH 31, 2008
                                                                                    Audit period
                                                                                                           Cumulative
                                                            Budget as of           disbursements                                 Balance remaining
                            Program                                                                       disbursed as of
                                                            Mar. 31, 2008           Oct. 1, 2007-                                as of Mar. 31, 2008
                                                                                                          Mar. 31, 2008
                                                                                   Mar. 31, 20089
     Business Recovery Grant                                    $218,946,000               ($29,983)           $218,910,549                   $35,451
     Job Creation and Retention                                 $150,000,000             $2,722,875            $101,261,322                $48,738,678
     Small Firm Attraction                                       $29,000,000             $5,394,500              $27,573,250                $1,426,750
     Residential Grant (housing assistance)                     $237,500,000                $25,914            $236,168,482                 $1,331,518
     Employment Training Assistance                                 $346,000                ($6,782)               $337,771                     $8,229
     Memorial Design & Installation                                 $315,000                        $0             $309,969                     $5,031
     Columbus Park Renovation                                       $998,571                        $0                      $0               $998,571
     Marketing History and Heritage Museums                       $4,664,000               $322,308               $4,612,620                  $51,380
     Downtown Alliance Streetscape                                $4,000,000                        $0            $4,000,000                       $0
     New York Stock Exchange Area Improvements                   $25,160,000                   $609               $5,476,000               $19,684,000
     Parks and Open Spaces                                       $46,981,689                $36,315              $17,771,320               $29,210,369
     Hudson River Park Improvements                              $72,600,000            $22,511,415              $30,242,648               $42,357,352
     West Street Pedestrian Connection                           $22,955,811                        $0           $18,327,501                $4,628,310
     Lower Manhattan Communications Outreach                      $1,000,000                ($1,583)              $1,000,000                       $0
     Green Roof project                                             $100,000                        $0                      $0               $100,000
     Chinatown Tourism & Marketing                                $1,160,000                        $0             $999,835                  $160,165
     Lower Manhattan Information                                  $2,570,000                        $0            $1,752,391                 $817,609
     World Trade Center Memorial and Cultural10                 $622,517,180            $33,620,503            $377,665,543               $244,851,637
     Lower Manhattan Tourism                                      $4,176,000                        $0            $3,950,000                 $226,000
     East River Waterfront project                              $150,000,000               $222,422               $1,243,297              $148,756,703
     Local Transportation and Ferry Service                       $9,000,000               $791,453               $1,358,591                $7,641,409
     East Side K-8 School                                        $23,000,000                        $0               $28,703               $22,971,297
     Filterman Hall Reconstruction                               $15,000,000                        $0                $1,784               $14,998,216
     Chinatown Local Development Corporation                      $7,000,000                        $0             $164,123                 $6,835,877
     Affordable Housing                                          $54,000,000                        $0                      $0             $54,000,000
     Public Services Activities                                   $6,796,900                $90,700               $6,074,719                 $722,181
     Administration & Planning                                  $112,262,000             $3,877,781              $79,801,435               $32,460,565
     Disproportionate Loss of Workforce                          $33,000,000                        $0           $32,999,997                       $3
     Utility Restoration and Infrastructure Rebuilding          $735,000,000             $1,117,972            $270,545,615               $464,454,385
     Lower Manhattan Enhancement Fund                            $88,950,849             $3,446,473              $11,133,134               $77,817,715
     Drawing Center                                               $2,000,000                        $0                      $0              $2,000,000
     Fulton Corridor Revitalization                              $38,000,000               $336,223                $430,782                $37,569,218
     Economic Development – Other                                $30,000,000                        $0                      $0             $30,000,000
     Transportation Improvements                                 $31,000,000                        $0                      $0             $31,000,000
     Education – Other                                            $3,000,000                     $0                       $0              $3,000,000
                             Total                            $2,783,000,000            $74,479,115           $1,454,141,381          $1,328,858,619




9
     Negative amounts are recoveries except for Lower Manhattan Communications, which is a reallocation to Administration and Planning.
10
     Includes drawdown of $89,016.50 posted to the bank account on March 31, 2008.
                                                                       17
